AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 19X
JOHN DOE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
X

STATE OF NEW YORK

)

COUNTY OF NEW YORK )
1, Noel Reyes, being duly sworn according to law and being over the age of 18, upon
my oath depose and say that:
I am retained by Counsel of Record for Petitioner.
That on the 25th day of October, 2019,1 served the within Petition for Writ in the
above-captioned matter upon:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202)514-2217
SupremeCtBriefs@usdoi. gov
by depositing three copies of same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, in an official depository maintained
by the United States Postal Service, via Express Mail.
That on the same date as above, I sent to this Court forty copies and 1 un-bound
copy of the within Petition for Writ through the United States Postal Service by Express
Mail, postage prepaid.

y

All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 25th day of October, 2019.

Z
Sworn to

Noel Reyes

ibscribed before me this 25th day of October, 2019.

r

Elias Melendez
Notary Public State of New Y«f
No. 24*4799661
Qualified in Kings County
Commission Expires Aug. 31, 2021

# 292104

0

COUNSEL PRESS
(800)274-3321 -(800)359-6859
www.counselpress.com

